No. 20-1708
IN THE SUPREME COURT OF THE UNITED STATES
_________________
JOSE LEONEL BONILLA-ROMERO, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and first-class mail,
postage prepaid, this 12TH day of October, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5644
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
October 12, 2021.

Edwin S. Kneedler
Deputy Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 12, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-1708
BONILLA-ROMERO, JOSE LEONEL
USA

COOKE WILSON KELSEY
PARKER & SANCHEZ PLLC
700 LOUISIANA ST.
STE 2700
HOUSTON, TX 77002
713-659-7200
COOKE@PARKERSANCHEZ.COM

